<html>
<title> - WHY TAIWAN MATTERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                           WHY TAIWAN MATTERS 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2011

                               __________

                           Serial No. 112-42

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-902 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. June Teufel Dreyer, professor of political science at 
  University of Miami, senior fellow at Foreign Policy Research 
  Institute......................................................    11
Mr. Randall G. Schriver, partner at Armitage International LLC., 
  president & CEO of the Project 2049 Institute..................    17
Mr. Rupert J. Hammond-Chambers, president of the U.S.-Taiwan 
  Business Council, Member of National Committee on United 
  States-China Relations.........................................    25
Ms. Nancy Bernkopf Tucker, professor, School of Foreign Service, 
  Georgetown University..........................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     3
Ms. June Teufel Dreyer: Prepared statement.......................    13
Mr. Randall G. Schriver: Prepared statement......................    19
Mr. Rupert J. Hammond-Chambers: Prepared statement...............    27
Ms. Nancy Bernkopf Tucker: Prepared statement....................    47

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    73
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    75
Written responses from Ms. June Teufel Dreyer to questions 
  submitted for the record by the Honorable Jeff Duncan, a 
  Representative in Congress from the State of South Carolina....    77
Written responses from Mr. Randall G. Schriver to questions 
  submitted for the record by the Honorable Jeff Duncan..........    82


                           WHY TAIWAN MATTERS

                              ----------                              


                        THURSDAY, JUNE 16, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and the ranking member, Mr. 
Berman, for 7 minutes each for our opening statements, I will 
recognize the chairman and the ranking member of the 
Subcommittee on Asia and the Pacific for 3 minutes each for 
their opening remarks.
    We will then hear from our witnesses, and I would ask that 
you summarize your prepared statements in 5 minutes each before 
we move to questions and answers from the members under the 5-
minute rule.
    Without objection, your prepared statements will be made 
part of the record; and members may have 5 days to insert 
statements and questions for the record subject to the length 
limitation of the rules.
    The chair now recognizes herself for 7 minutes.
    Today's hearing is entitled "Why Taiwan Matters." The 
answer simply is that Taiwan matters because people matter. I 
do not mean ``people'' in that false use as in the ``People's 
Republic of China.'' I refer to people as in ``We, the 
People.''
    Taiwan has taken the ``We, the People'' principles of 
democracy--human rights, freedom of religion, and a free market 
economy--and transplanted them firmly into East Asian soil. 
Taiwan has belied those critics who asserted that a Confucian-
based, hierarchical society is ill-suited for the tenets of 
Jeffersonian democracy. Taiwan offers the audacity of hope--do 
you like that phrase, Mr. Berman--to the survivors of the 
Tiananmen Square massacre.
    Taiwan inspires all victims of Beijing's totalitarian 
oppression that they need not be faint of heart. It is for this 
very reason, this shining example of liberty, that the cynical 
old men who still rule in Beijing are so fearful of Taiwan. It 
is for this very reason that they strive to eliminate this 
beacon of democracy. And it is for this very reason that 
Congress, through the Taiwan Relations Act, must strive to help 
preserve a Taiwan that reflects the aspirations of its people.
    This hearing is especially timely and necessary because it 
has come to my attention that there is a new spirit of 
appeasement in the air. Some in Washington policy circles are 
suggesting that the time has come to recognize the reality of a 
rising China and to cut our ties to Taiwan. This would be a 
terrible mistake which would have far-reaching ramifications on 
how the U.S. treats its democratic allies, its friends.
    Turning to Taiwan's round of free elections early next 
year, it should be perfectly clear: The people of Taiwan must 
be able to choose their leaders and influence their future, 
free from outside bullying or coercion. I have heard that some 
Communist cronies in Beijing even recently urged the people of 
Taiwan to ``choose the right person'' in the upcoming 
elections--or else. This naysayer would seem to be subscribing 
to Chairman Mao's old dictum that ``political power rose out of 
the barrel of a gun.'' To the Communist leaders in Beijing I 
say this: The ballot box is mightier than the gun's barrel.
    I have news for the naysayers on Taiwan policy as well: The 
United States is a Pacific power and plans to remain so for 
this century and beyond. The commitments made in the Taiwan 
Relations Act have remained unchanged for over 30 years and 
still hold true today. The pledges in the six assurances given 
by President Ronald Reagan to Taiwan, including the one not to 
set a date for termination of arm sales to Taiwan, remain as 
firm today as they were back in 1982.
    With over 1,600 missiles pointed directly across the Taiwan 
Strait, Taiwan needs the means to defend itself from threats 
and intimidation. Taiwan needs the next generation of F-16 
fighters now in order to protect its skies. With CIA Director--
and incoming Defense Secretary--Leon Panetta recently telling 
our Senate colleagues that China is preparing for ``potential 
contingencies'' that may involve Taiwan, there is a clear and 
present danger of sending Beijing the wrong signal. To avoid 
any misinterpretation about congressional commitment to Taiwan 
security and its survival, I will soon introduce legislation to 
enhance the Taiwan Relations Act.
    I would like to add a final word of caution for our friends 
regarding Taiwan. The American Chamber of Commerce in Taipei in 
its annual white paper cautioned Taiwan against an overreliance 
on trade with China and urged a diversification of Taiwan's 
overseas markets. I, too, cautioned last year and repeat here 
today that Beijing's pursuit of ever-deepening trade ties with 
Taiwan could prove to be a Trojan horse. Beijing's game plan 
seems to be that economic integration will lead inevitably to 
political integration. The people of Taiwan must be vigilant in 
remembering that all that glitters is not gold.
    The challenges in the 32 years since the enactment of the 
Taiwan Relations Act have been many, and they remain so today. 
But we in Washington, as in Taiwan, give due diligence to the 
challenges at hand. We can look forward to the continuation of 
the vibrant democracy and the free market economy enjoyed by 
the people of Taiwan.
    Before recognizing the ranking member for his opening 
remarks, I would like to note the presence in our audience 
today of our former colleague, Congressman Lester Wolff of New 
York. Lester, will you stand?
    He was chairman of this committee's Asia and the Pacific 
Subcommittee during the crucial period of the late 1970s. 
Congressman Wolff played a leadership role in the framing and 
legislative enactment of the Taiwan Relations Act.
    I would like to note the presence also of the Formosa 
Foundation Student Ambassadors with whom I will meet later on 
today. If you could stand, young student leaders, thank you. 
Thank you for being with us.
    Now I am pleased to turn to my good friend, the ranking 
member, Mr. Berman, for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Berman. Well, thank you very much, Madam Chairman; and 
I am very glad you are having this hearing.
    Seeing Lester Wolff, former Congressman Wolff, in the 
audience is good in many respects, one of which is it makes me 
feel like I just got here.
    Taiwan is a flourishing multiparty democracy of 23 million 
people with a vibrant free market economy. It is the ninth 
biggest trading partner of the United States, ahead of much 
bigger countries like Brazil and India, and has been a 
consistent advocate for trade liberalization in the WTO and 
APEC.
    Over the past 60 years, the U.S.-Taiwan relationship has 
undergone dramatic changes, but Taiwan's development into a 
robust and lively democracy, as the chair so eloquently pointed 
out, underpins the strong U.S.-Taiwan friendship we enjoy 
today.
    Our relationship with Taiwan was initially defined by a 
shared strategic purpose of containing the spread of communism 
in Asia. With the end of the Cold War, Taiwan's political 
evolution from authoritarianism to one of the strongest 
democratic systems in Asia has transformed the U.S.-Taiwan 
relationship from one based essentially on shared interest to 
one based on shared values. The Taiwan Relations Act of 1979 is 
the cornerstone of the relationship between our two nations. It 
has been instrumental in maintaining peace and security across 
the Taiwan Straits and in Asia.
    One of the main obligations of the United States under that 
legislation is to make available to Taiwan defensive arms so 
that Taiwan is able to maintain a sufficient self-defense 
capability. Last year's Defense Department report to Congress 
on the Chinese military stated that China's military buildup 
opposite Taiwan is continuing and that the balance of cross-
strait military forces continues to shift in China's favor.
    In addition, another DoD assessment of Taiwan's air defense 
status concluded that, while Taiwan has nearly 400 combat 
aircraft in service, ``far fewer of these are operationally 
capable.''
    Taiwan urgently needs new tactical fighters. I encourage 
the administration to work closely with Congress in meeting our 
obligations pursuant to the TRA and provide Taiwan with the 
weapons it requires, including F-16 fighters.
    While the cross-strait security situation remains tenuous, 
it is encouraging to see that stronger economic and cultural 
ties have developed between Taiwan and China in recent years. 
There are now more than 350 direct flights between Taiwan and 
the mainland, and last year over 1.6 million tourists from 
China visited Taiwan. The two sides also signed a landmark 
trade agreement last year that lowered and eliminated tariffs 
on hundreds of commodities.
    These examples are part of a positive trend that has 
strengthened relations between Taiwan and China, and it would 
benefit both Taiwan and Beijing to take additional steps to 
build cross-strait trust and cooperation.
    Three years ago when he took office, Taiwan's President 
initiated a policy of rapprochement with the mainland, 
declaring, ``no unification, no independence, and no use of 
force.''
    China could have responded in kind by forswearing the use 
of military force to bring about reunification and reducing 
their military threat against Taiwan. Instead, they increased 
their missile deployment targeting in Taiwan. If China won't 
take steps to reduce this military threat even after all of 
Taiwan's efforts at rapprochement, can we expect that China 
ever will renounce the use of force?
    Taiwan's political, economic, and social transformation 
over the past 60 years has demonstrated that a state can be 
thoroughly Chinese, modern, and democratic. Taiwan's example is 
an inspiration for other countries in Asia and throughout the 
world that linger under the control of one person or one party. 
And next year's election in Taiwan, its fifth direct 
Presidential election, will be another sign of the political 
maturity of the Taiwanese people and a signal to Beijing that a 
change in relations between Taiwan and China cannot be imposed 
by the mainland.
    For many years, I have been a staunch supporter of the 
people of Taiwan; and I will continue to foster efforts here in 
Congress to demonstrate our country's continued strong support 
for Taiwan. I look forward to the testimony of our expert 
witnesses this morning and in hearing their views on how to 
further strengthen ties between the United States and Taiwan.
    And, Madam Chairman, I yield back yield back the balance of 
my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman. 
Thank you for that opening statement.
    Mr. Manzullo, the chairman of the appropriate subcommittee, 
is recognized.
    Mr. Manzullo. Thank you, Madam Chairman, for calling this 
important hearing today regarding our relationship with Taiwan.
    We have enjoyed a long and fruitful relationship with the 
Taiwanese, and it goes without saying that Taiwan has always 
mattered, now and into the future.
    The U.S. and Taiwan share common goals that ensure an 
economically vibrant and peaceful Asia based on respect for 
intellectual property rights, human rights, domestic 
principles, and adherence to the rule of law. Taiwan is a 
success story in promoting universal freedoms and advancing 
democracy and trade. The people of Taiwan have shown true 
leadership in developing their country through their economy, 
raising standards of living, and adhering to a democratic 
system of governance.
    Economics and trade have played a key role in delicately 
balancing our relationship between the People's Republic of 
China and Taiwan. Taiwan's success and economic prowess in the 
1970s influenced the leadership of mainland China to consider 
and ultimately implement economic reforms. Taiwan therefore 
serves as a beacon of reform but, just as importantly, as a 
beacon of democracy in a continent that has very few 
democracies.
    As a major innovator and producer of information 
technology, Taiwan is a pioneer in high-tech goods and has 
successfully moved up the value chain in manufacturing.
    Taiwan is also America's ninth largest trading partner and 
thirteenth largest export market for U.S. agricultural 
products. Taiwan imports a wide variety of electronics, 
optical, precision instruments, information and communications 
products, transportation equipment, machinery, and electrical 
products from the United States. Needless to say, this is an 
important export market for American manufacturers.
    Maintaining peace across the Taiwan Strait must be the 
priority for the U.S. and all countries in the broader Asia-
Pacific region. The Taiwan Relations Act governs America's 
relationship with Taiwan, and as chairman of the Subcommittee 
on Asia and the Pacific, I believe the TRA must continue to 
play a central role in the future.
    Providing Taiwan with the means to defend itself is a 
cornerstone of a stable cross-strait policy. The economic 
prosperity and livelihood of people in the region and in the 
United States depend on a stable and peaceful cross-strait 
relationship. Taiwan embraces our democratic values and world 
view and has consistently remained a staunch supporter and 
friend. The friendship between our two peoples has stood the 
test of time, and it will into the future.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Manzullo.
    Mr. Faleomavaega is recognized as the ranking member of the 
Subcommittee on Asia and the Pacific.
    Mr. Faleomavaega. Thank you, Madam Chair and our ranking 
member, for calling this hearing. I think it could not be more 
appropriately stated: Why Taiwan Matters.
    Madam Chair, since 1979, the U.S. policy regarding Taiwan 
has remained unchanged. The Joint Communique, together with the 
Taiwan Relations Act, are the foundation of our policy which 
acknowledges that one China position on both sides of the 
straits and implies, as Republican President Ronald Reagan once 
said, and I quote, ``the Taiwan question is a matter for the 
Chinese people on both sides of the Taiwan Straits to 
resolve.''
    Whether Democrat or Republican, every U.S. President since 
1979 has stood by this assertion. In fact, the Taiwan Relations 
Act states that it is the policy of the United States, and I 
quote, ``to preserve and promote extensive, close, and friendly 
commercial, cultural, and other relations between the people of 
the United States and the people of Taiwan, as well as the 
people on the China mainland.''
    For the sake of our U.S. troops, I also support this 
policy; and I believe we should do everything we can to make 
sure this policy works so that U.S. troops are not called upon 
to resolve any unnecessary conflict between Taipei and Beijing.
    And, as you noted earlier, also, Madam Chair, I do want to 
also note the contribution, the tremendous contribution of the 
former chairman of the Asia Pacific Subcommittee, my good 
friend and colleague, Congressman Lester Wolff, for his 
outstanding contributions and one of the critical forces who 
brought about the passage of the Taiwan Relations Act. Very 
much appreciate his presence here with us.
    On a personal note, Madam Chair, I want to commend 
President Ma for his leadership in reducing tensions in the 
cross-straits. I also support President Ma's efforts to call 
upon the United States to sell the Government of Taiwan all the 
F-16 C/Ds it requires in accordance with the Taiwan Relations 
Act which requires the United States, and I quote, ``to provide 
Taiwan with arms of a defensive character, in order to maintain 
the capacity of the United States to resist any resort to force 
or the forms of coercion that would jeopardize the security of 
the social and economic system of the people of Taiwan.''
    Given that Beijing has some 1,400 missiles aimed at Taiwan, 
I add my voice to those calling upon the Obama administration 
to authorize armed sales to Taiwan as a primary military 
deterrence.
    Having said this, Madam Chair, I also want to note that 
since President Ma took office Taiwan has participated as an 
observer at the World Health Assembly. There are now 307 direct 
flights from the cities in Taiwan every week. There has been a 
relaxation of China-bound investments, more visas, more 
mainland tourists, and more exchange in many other areas. 
Taiwan and China also inked the Economic Cooperation Framework 
Agreement last summer, and trade between China and Taiwan now 
totals over $110 billion a year.
    So I commend both Beijing and Taipei for their efforts in 
trying to bring about a peaceful resolution to some of the 
issues that they now are confronted with.
    And with that, Madam Chair, I know my time is up; and I 
yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    I would like to yield 1 minute to the members who would 
like to speak.
    Mr. Chabot, the subcommittee chair on the Middle East and 
South Asia is recognized.
    Mr. Chabot. Thank you, Madam Chairman, for holding this 
very important hearing. I want to commend you for doing so.
    Taiwan is a long-time friend and loyal democratic ally of 
the United States, and your convening a hearing entitled Why 
Taiwan Matters couldn't be more appropriate.
    As one of the founding co-chairs of the congressional 
Taiwan Caucus and having visited that nation many times, I can 
say with some authority that the freedom-loving Taiwanese 
people know you to be a great friend and a true champion of 
democracy.
    I am sorry the administration did not find it convenient to 
send a witness this morning. There always seems to be time for 
an elaborate arrival ceremony or a State dinner for visiting 
Communist leaders from Beijing, but when our democratic ally 
Taiwan is being discussed, time on the schedule seems to get a 
little tight.
    We do, however, have a great panel of witnesses.
    One final comment. The fact that former President Chen 
Shui-bian, a strong ally of the United States, still occupies a 
jail cell is of great concern. To me, there is the scent of the 
criminalization of politics, and it smacks of third worldism. 
Taiwan is much better than that; and, as a very strong ally of 
Taiwan, I would like to see this addressed.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
holding this hearing.
    You know, the U.S. relationship with Taiwan is a 
multifaceted one and a very important one. Our policy with 
regard to the defensive capabilities of Taiwan should not 
surprise anybody. It is clearly outlined in the Taiwan 
Relations Act of 1979, which states it is the policy of the 
United States Government to provide Taiwan with arms of a 
defensive character.
    Moreover, the three Joint Communiques between the U.S. and 
the People's Republic of China and the six assurances to Taipei 
offered by President Reagan add additional context to the U.S.-
Taiwan relationship. It is important that the United States 
show strength and fortitude in this relationship as it pursues 
other relationships that are also important in the region.
    With that, I yield back. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Burton, the Subcommittee on Europe and Eurasia 
chairman.
    Mr. Burton. I won't add too much to what has already been 
said. Taiwan is a great friend and always has been.
    My colleague from Ohio mentioned that the Chinese Communist 
leader got the red carpet treatment at the White House 
treatment and said we ought to show some attention to Taiwan. 
You know, one of the things that really bothers me is that they 
can't even get off the plane. The President of Taiwan comes to 
the United States, and I am down there in Florida to meet him, 
and he can't get off the plane. That is a disgrace.
    When we want to talk about diplomacy with Taiwan, one of 
our great trading partners and great friends, we can't get 
people in the administration or any administration to go over 
there and talk to them. They can't come here to sit down and 
talk to us, in many cases. That is just not right, and we need 
to change that, and that is one of the questions I will be 
asking our panel.
    Chairman Ros-Lehtinen. Thank you, Mr. Burton.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair.
    I, too, look forward to the expert testimony of our panel 
here. Taiwan is a very important nation of over 23 million 
people, a dynamic economy which has experienced some slow 
growth in the last several years. So I look forward to the 
testimony and exploring ways and opportunities the United 
States can benefit from a strategic partnership with Taiwan.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Royce is recognized, the chairman of the Subcommittee 
on Terrorism, Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chairman.
    I think what really strikes us is it has just been a mere 
few decades since Taiwan has gone from poverty to prosperity 
and from autocracy to democracy. I think Taiwanese Americans 
are rightfully proud about what has happened here. Taiwan is 
truly a responsible stakeholder today. It is a long-time friend 
to the United States.
    It is a friend that faces some serious challenges. One is 
that China's rapid militarization and continued belligerent 
actions in the South China Sea are a serious cause for concern 
to Taiwan, to all of Asia, and to us.
    I think another observation is, since the 1990s, China has 
warned Asian nations not to sign free trade agreements with 
Taiwan. So you have numerous global FTAs out of the region 
already in place. There are about 100 of them in East Asia. And 
they are steadily undermining Taiwan's international 
competitiveness through trade and investment discrimination.
    So what can we do? Well, one of the issues that the 
American Chamber of Commerce in Taipei called for were closer 
trade relations between U.S. and Taiwan to strengthen that 
bilateral relationship and we could move forward on our Trade 
and Investment Framework Agreement agenda with Taiwan. It is 
something we should look at today. I would hope our witnesses 
would comment on it.
    And I thank you very much, Madam Chairman, for holding this 
hearing.
    Chairman Ros-Lehtinen. Thank you very much, Chairman Royce.
    And now the chair is pleased to welcome our witnesses.
    First, I am happy to introduce a fellow south Floridian as 
a panel member. I don't know how she got to be a panel member.
    June Teufel Dreyer is a professor of political science at 
the University of Miami. Go 'Canes. Professor Dreyer's 
extensive research has focused on Chinese and cross-strait 
politics, as well as on defense issues involving both Taiwan 
and China. Among the many books she has authored is the 
``Chinese Political System: Modernization and Tradition.'' 
Thank you for the inscription.
    Professor Dreyer is a former commissioner of the 
congressionally established United States Economic and Security 
Review Commission. She is also a member of the International 
Institute of Strategic Studies in London and earned her 
doctorate from Harvard University.
    Welcome, Professor.
    Next, I would like to welcome Randall Schriver. I did not 
see you at the beginning or would have said hello. I apologize.
    Randy is one of the five founding partners of Armitage 
International. Mr. Schriver is also the CEO and president of 
the Project 2049 Institute, a nonprofit research organization 
dedicated to the study of security in Asia.
    He previously served as Deputy Assistant Secretary of State 
for East Asian and Pacific Affairs, with the responsibility of 
Taiwan, China, and Hong Kong during the first George W. Bush 
administration. Prior to that, he worked for 4 years in the 
Office of the Secretary of Defense, where his responsibility 
included the day-to-day management of U.S. relations with the 
People's Liberation Army and the bilateral security and 
military relationships with Taiwan.
    Randy served his country as an active duty Navy 
intelligence officer between 1989 and 1991. Mr. Schriver holds 
a master's degree in public policy from Harvard University and 
received a bachelor's in history from Williams College.
    We are glad to have you with us, Mr. Schriver.
    We now have one of the world's foremost experts on Taiwan's 
economy here with us today, Mr. Hammond-Chambers, who was born 
and raised in Scotland before coming to the United States in 
1987.
    In 1993, he joined The Center for Security Policy, a 
defense and foreign policy think tank in Washington, DC, as the 
associate for development. Mr. Hammond-Chambers was elected 
president of the U.S.-Taiwan Business Council in November, 
2000, after working for the Council since 1994.
    He is also a member of both the National Committee on 
United States-China Relations and the Council of Foreign 
Relations. He holds a bachelor's degree in history and religion 
from Denison University.
    Welcome, Mr. Hammond-Chambers.
    And now, rounding off the panel, we are so pleased to 
welcome Nancy Bernkopf Tucker, a professor of history at 
Georgetown University in its School of Foreign Service.
    Professor Tucker is a highly regarded American diplomatic 
historian who specializes in American-East Asian relations, 
including relations with Taiwan, China, and Hong Kong. In 2007, 
she received the National Intelligence Medal of Achievement for 
her contributions as an Assistant Deputy Director of National 
Intelligence in the Office of the Director of National 
Intelligence. Previous U.S. Government service dating back to 
the 1980s included working in both the Office of Chinese 
Affairs in the Department of State and the U.S. Embassy in 
Beijing.
    The professor's most recent book, published in 2009, is 
entitled, ``Strait Talk: U.S.-Taiwan Relations and the Crisis 
with China''--I am holding it right now--which examines the 
Washington, Taipei, Beijing triangular relationship. Her 
numerous academic essays have appeared in such journals as 
Foreign Affairs, the Journal of American History, and Political 
Science Quarterly. Professor Tucker holds a Ph.D. degree from 
Columbia and is a member of the Council on Foreign Relations.
    Good to have you here, Professor.
    I kindly remind our witnesses to keep your oral testimony 
to no more than 5 minutes.
    Without objection, the witnesses' written statements will 
be inserted into the record; and we hope to get through them 
without any problem before the votes start at 11 o'clock.
    So we will begin with you, Professor Dreyer.

  STATEMENT OF MS. JUNE TEUFEL DREYER, PROFESSOR OF POLITICAL 
SCIENCE AT UNIVERSITY OF MIAMI, SENIOR FELLOW AT FOREIGN POLICY 
                       RESEARCH INSTITUTE

    Ms. Dreyer. Thank you very much for having me here.
    I begin my remarks with reference to a recent article 
entitled Taiwan's Narrowing Options, talking about the 
inevitability of its absorption into China. My opinion is that 
this is not in the best interest of the United States, for two 
major reasons. The first is strategic and the second is that it 
is a betrayal of the very principles that the United States was 
founded on. It mocks us to the rest of the world as just 
another hypocritical state making decisions that negatively 
affect millions of people, purely on the basis of short-term 
expediency.
    To take the first first, as part of my research into 
Chinese defense policies, I read Chinese defense journals. 
These don't circulate in the United States. They are in 
Chinese. And I find there that Taiwan is not discussed here as 
terra irredenta, some sacred, long-lost part of China that has 
to be recouped. No. It is regarded as a springboard for the 
Chinese military to break out of the island chains around China 
and into the open Pacific from which point China can gain 
control of the sea lanes of communication. And, of course, 
these are vital to commerce and the transport of energy. They 
give whoever controls them a stranglehold on whoever does not 
control them. At present, United States controls them. Are we 
willing to cede this?
    Second, the United States was founded on the principle that 
human beings have the right to self-determination. It is so 
stated in our Declaration of Independence; it was reiterated in 
Woodrow Wilson's Fourteen Points; and, most recently, it was 
stated emphatically by President Obama when speaking about the 
Middle East. Yet we explicitly have denied this right to the 
people of Taiwan. This is a disgrace.
    Now this occurs against a background of errors and 
``misstatements'' by members of our administration. This is not 
a Democratic/Republican thing. This has happened under several 
administrations.
    In 2003, the Department of Defense published a handbook 
entitled ``Taiwan, Province of China.'' If I had a cell phone, 
I would be typing OMG. After that, Colin Powell, as Secretary 
of State, said, ``Taiwan is not independent. It is not a 
sovereign state.'' Violation of six assurances in Taiwan 
Relations Act--well, he misspoke.
    Most recently, Secretary of Defense Gates said, ``We take 
Chinese sensitivities into account when deciding to sell what 
weapons Taiwan will get.''
    This is surreal. We are allowing a country that has 
insisted it has the right to conquer another country by force 
to decide what weapons we sell to that country. Think about the 
absurdity of that statement.
    There have also been a couple of articles in a journal that 
is widely regarded as reflecting official opinion to the effect 
that the United States should abandon Taiwan. This journal has 
printed no articles expressing any other point of view. If I am 
a Taiwanese, what do I think? Taiwan is pretty responsive to 
China for its economic ties. Yet it is responsible to the 
United States for its strategic independence. And they realize, 
if the United States means to abandon them, maybe it is better 
to bandwagon with China, rather than wait to be conquered by 
force.
    I can see I am running out of time here. I will close with 
my four recommendations: That is, to reiterate things, 
representatives have said, sell the F-16 C/Ds to Taiwan; 
second, reassess Taiwan's legitimate defense needs and what we 
can do to satisfy them; three, remove the restrictions on high-
level visits between our officials and also on the locations 
they can be held in; and, fourth, issue a strong affirmation of 
the right of the people of Taiwan to determine their own 
political future free from pressure by external forces.
    Thank you for this opportunity.
    [The prepared statement of Ms. Dreyer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, Professor.
    Mr. Schriver, the partner at Armitage International is 
recognized.

   STATEMENT OF MR. RANDALL G. SCHRIVER, PARTNER AT ARMITAGE 
    INTERNATIONAL LLC., PRESIDENT & CEO OF THE PROJECT 2049 
                           INSTITUTE

    Mr. Schriver. Good morning. Thank you, Madam Chair, and 
thank you for the opportunity to testify before the committee 
today and for having a hearing on this very important topic.
    In the interest of time, let me just make four very quick 
points.
    The first point is that, for all the reasons previously 
articulated, Taiwan is extremely important and extremely 
important to the United States. We do have a strong and stable 
relationship with Taiwan. However, I feel as though this 
administration--and, to be candid, like previous 
administrations--does not hold high enough aspirations for 
Taiwan or the U.S.-Taiwan relationship. It is too often seen as 
merely a subset of U.S.-China relations. It is too often seen 
as an issue to manage in the context of U.S.-China relations.
    That not only relegates Taiwan to this sub-issue category, 
but it brings opportunity costs. We are losing the 
opportunities to partner with Taiwan that is a like-minded 
country in so many ways, and we are losing the opportunity to 
leverage what Taiwan can bring to bear on so many regional and 
international challenges.
    Second point, there is no doubt in my mind that we have 
witnessed an improvement in the cross-strait relationship in 
the last 3 years, and I think some credit is certainly due to 
President Ma. Credit is also due to the DPP, of course. They 
started a lot of the economic cross-strait activity on their 
watch under President Chen Shui-bian. So all the people of 
Taiwan deserve credit for the good work that has been done to 
promote cross-strait relations.
    The one thing that hasn't changed--and this has already 
been pointed out, of course--is the dramatic nature of the 
military buildup opposite Taiwan. I think we need to be very 
clear on this point. We have a very senior ranking Chinese 
general coming to the United States and saying there aren't 
missiles pointed at Taiwan. We have some U.S. scholars and even 
former officials saying that China has taken steps to reduce 
the threat to Taiwan. And this is just false, and this is well-
documented in our DoD reports, well documented by objective 
analysts, and it is an important point. Because, of course, 
what our law says is that our decisions will be based solely 
based on the needs of Taiwan. So it is an important point to 
recognize that this buildup continues unabated.
    The third point, I feel as though the response to this 
buildup on the part of the United States has been insufficient. 
And, again, I would be candid and say my own administration I 
served in was not robust enough in response, and that has 
continued and perhaps gotten worse in the current 
administration.
    There are several platforms and systems under 
consideration--some have been mentioned here--F-16 C/Ds, 
submarines, other systems. I would say not only does Taiwan 
need these systems, not only does our law suggest that they 
should be made available to Taiwan, I think if they are 
withheld, not made available, I would seriously call into 
question whether or not the law is being honored at this point, 
given the state of the buildup.
    And I do fear that there is a growing Chinese influence on 
our own process and our own decision making. The comment 
already made quoting Secretary Gates is of great concern when 
we have six assurances that we still allege to honor and we 
have a law that says our decisions will be solely based on 
Taiwan's defense needs.
    It looks as though to me that there is growing Chinese 
influence. We are facing what I sometimes call the ``tyranny of 
the calendar,'' all these different high-level U.S.-China 
activities when we can't possibly do a congressional 
notification for Taiwan in any proximity to those visits. This 
is not the way that the original architects of the law--it is 
just such a pleasure to have Congressman Wolff here and those 
that are still the stewards and the overseers of the law. It is 
not the way that people intended this to be carried out.
    The fourth point is there have been some people calling for 
reducing or eliminating arms sales, changing the TRA, perhaps 
abandoning Taiwan. I think this is a very bad idea; and, in 
fact, I would go in the opposite direction. I applaud your 
efforts to strengthen the Taiwan Relations Act, but those that 
are saying we should abandon Taiwan I think are operating on a 
number of false assumptions, somehow we are going to get better 
U.S.-China cooperation on North Korea and Iran. Whereas I think 
China's policies there are driven by her own interests, which 
are very important strategic interests for China, not a fit of 
pique over our Taiwan policy.
    Some people think that somehow this will help improve the 
cross-strait relationship, when, in fact, the historical data 
actually shows our arm sales support cross-strait negotiations. 
The 150 F-16s sold in 1992 preceded by a mere few months the 
so-called 1992 Consensus, the agreement reached in Hong Kong.
    Even the $6.4 billion package that the Obama administration 
did in early 2010 preceded by just a few months the ECFA 
agreement, the economic agreement between the two sides.
    So why would we change course now and alter the negotiating 
environment? I think this is a policy that is successful, and 
we should continue it.
    And I look forward to your questions, Madam Chair, and 
other committee members.
    [The prepared statement of Mr. Schriver follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much.
    Next, we will hear from Mr. Hammond-Chambers, the president 
of the U.S.-Taiwan Business Council. And I would note that in 
your official biography you have a very cool Robert De Niro 
goatee. Maybe the Mrs. behind you nixed that one, huh?

 STATEMENT OF MR. RUPERT J. HAMMOND-CHAMBERS, PRESIDENT OF THE 
 U.S.-TAIWAN BUSINESS COUNCIL, MEMBER OF NATIONAL COMMITTEE ON 
                 UNITED STATES-CHINA RELATIONS

    Mr. Hammond-Chambers. Very perceptive of you, Madam 
Chairwoman, yes. She said, ``Enough.''
    Madam Chairman, esteemed committee members, as an immigrant 
to the United States I want to say what an honor it is to 
testify in front of this committee. As my good friend Randy 
likes to point, I am Scottish by birth, but I am American by 
choice, and I take that with great pride.
    I believe that the relationship between the U.S. and Taiwan 
is suffering significantly from a lack of ambition and a lack 
of leadership. We have throughout the different areas of policy 
a lack of leadership on the part of the administration to move 
forward in areas that would benefit our country.
    As you, Madam Chairman, pointed out, Taiwan is a dynamic 
democracy. We have seen a peaceful transition of power. We have 
dynamic legislative and executive branches vested with real 
power. We have an active dual party democracy, respect for 
human rights, and media. And Taiwan also a serious player on 
the defense security region when it can get access to 
equipment, of course.
    For many, many reasons--for those reasons and many reasons 
more, Taiwan stands as a beacon for U.S. Policy in the region 
and around the world and is deserving of American support.
    There are three specific areas in which we are coming up 
short: Econ, military, and communication.
    In the economic area, as mentioned by one of your committee 
members, the TIFA process is again frozen. We are in the 7th 
year out of 11 years in which the principal process for 
negotiating with Taiwan on economic matters is frozen, this 
time over beef.
    In the early part of this year, the administration was 
preparing to send Demetrios Marantis, the deputy, out to 
Taiwan. There was another beef issue of ractopamine. That issue 
undermined efforts to get Mr. Marantis to Taiwan, and again we 
were thrown back into crisis.
    There appears to be no likelihood that this issue will be 
resolved anytime soon, indeed through at least until the middle 
of 2012. Beef represents less than 1 percent of bilateral trade 
relationship, and yet it continues to dominate and to undermine 
the best intentions and hurt U.S. economic interests.
    From an FTA standpoint, Free Trade Agreement, I think it is 
simple enough to point out that, in the absence of a TIFA, it 
is difficult to talk about FTA in the absence of fast track and 
an FTA policy on the part of the administration. It is 
difficult to see how Taiwan fits there. However, at such time 
as the President has FTA as part of his policy objectives, we 
would hope to see Taiwan as a priority.
    On the arm sales issue, we have an almost complete 
breakdown in process as well as consideration of movement 
forward on capabilities and new capabilities. We have had no 
new significant programs in the system. We have no new 
significant programs in the system other than the F-16 A/Bs. 
They are sitting at State. They have been there since 
September, 2010. The pricing and availability data is ready to 
be sent to Taiwan; and the Department of State has offered no 
reason as to why, in the middle of the bureaucratic process in 
which a sale is considered, they have sat on the F-16 A/B 
upgrade for so many months.
    The submarine program, too, is at State. The congressional 
notification could be sent to Capitol Hill after due process at 
any time and yet we see no movement on that. That issue is of 
significant interest and importance to Taiwan.
    Of course, the issue of the LOR for F-16 C/Ds, Taiwan has 
been attempting to submit a lateral request for 66 F-16 C/Ds 
since 2007, and successive administrations have refused to even 
accept the LOR, bearing in mind, of course, as you and your 
committee members know, that accepting an LOR isn't an 
agreement to sell; it is simply an agreement to consider. And 
yet we find ourselves in a position where even the follow-on 
sale of additional equipment that Taiwan already has in its 
inventory is not under consideration.
    In process, you, Madam Chairman, have pointed out, issues 
over the Javits report, Senator Lugar has pointed out issues 
over due process, prenotification for congressional 
notification and other areas.
    At what point do we challenge the administration's 
rhetorical claim that they are abiding by the Taiwan Relations 
Act, following the proper FMS process for arm sales, and 
involving Congress in Taiwan-related security matters? I 
believe that time has come.
    The recommendations I would make are relaunching TIFA 
immediately, finish the extradition and visa waiver agreements 
in 2011, accept an LOR for F-16 C/Ds, notify to Congress at 
earliest possible opportunity the phase 1 submarine design, 
notify to Congress as early as possible the F-16 A/B upgrade 
program, and to restart the sending of Cabinet officers off to 
Taiwan.
    I hope very many, Madam Chairman, that your chair and your 
committee will look to fill the role of leadership where the 
administration at present is not. Thank you very much.
    [The prepared statement of Mr. Hammond-Chambers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir.
    Professor Tucker, thank you.

 STATEMENT OF MS. NANCY BERNKOPF TUCKER, PROFESSOR, SCHOOL OF 
             FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Ms. Tucker. Thank you.
    U.S. relations with Taiwan rarely merit special attention 
from the U.S. Government, the Congress, or the American people. 
In fact, for many years, the level of knowledge about and 
awareness of developments in Taiwan has been regrettably low. 
The House Foreign Affairs committee is making an important 
contribution by holding these hearings; and I want to thank the 
chairman, the ranking minority member, and the committee for 
the opportunity to be here.
    I am told if I knew more about sports I would understand 
the value of being the cleanup player here, and I will try to 
do that.
    We have already heard why Taiwan matters to the U.S.--its 
democracy, its highly developed economy, and its security 
profile.
    I want to underscore three points about security.
    First, the Taiwan Straits is the only place in the world 
where two nuclear armed great powers could go to war, if not by 
intent then by miscalculation, misunderstanding, or accident.
    Secondly, Taiwan's geostrategic position astride the sea 
lanes of supply and communication are critical to Japan and for 
the U.S. Navy's freedom of navigation.
    Third, Taiwan is a test of China's intentions and behavior. 
It can alert us to continued patience or mounting 
aggressiveness. It is also a test of U.S. reliability and 
credibility.
    However frightening or seductive China is, appeasing it by 
sacrificing Taiwan would not be good policy. But I believe the 
U.S. will not abandon Taiwan, despite Chinese threats and the 
potential benefits involved.
    The administration continues to build on policy inherited 
from George Bush, Bill Clinton, and their predecessors when it 
makes arm sales, shares intelligence, trains the military, 
observes military exercises, and conducts wide-ranging 
bilateral consultations with military and civilian officials; 
when it rebuffs Chinese efforts to destabilize U.S.-Taiwan 
relations with demands for a fourth communique on Taiwan and 
false claims that Beijing has no missiles threatening Taiwan, 
that Congress is eager to revise the Taiwan Relations Act, and 
that Secretary of State Clinton accepted that Taiwan is a part 
of China.
    The administration strongly supports peaceful resolution of 
the cross-strait stalemate but only with the assent of the 
people of Taiwan. It encourages Taiwan's democratic system, 
which, I think, is particularly important since reports suggest 
that China is already interfering with the January elections.
    And, finally, as a visible symbol of U.S. friendship for 
Taiwan, it is completing construction of a new American 
Institute in Taiwan headquarters on land that we have leased 
for 99 years.
    But I believe government can and should do more.
    First, it should, as others have said, sell the F-16 C/D 
and upgrade F-16 A/Bs despite China's likely retaliation. They 
are vital for defense, for the confidence to negotiate, and 
admittedly as a tangible indicator of U.S. support.
    The government should resume Cabinet-level visits that are 
important symbolically but also improve communication and 
because I know from my own government service that they educate 
officials who have to prepare for the trips. It should grant 
better access to the U.S. Government for higher-level Taiwan 
officials and approve visa waiver and extradition policies.
    I also want to say something specifically about Congress, 
and I join the chairman in this with the audacity of hope to 
recommend to the Congress that it should restore active 
oversight of Taiwan affairs. That was notable after passage of 
the TRA but has been minimal more recently.
    Secondly, I believe it should intervene to neutralize 
political debate and facilitate settlement of the beef 
controversy so that we can get TIFA talks going.
    Thirdly, it should assist development of Taiwan's 
legislature and its other democratic institutions.
    And, fourthly, it should educate the U.S. public and its 
own Members of Congress about why Taiwan matters.
    In conclusion, sustaining U.S.-Taiwan ties will not be 
easy, but it is essential. There is nothing inevitable about 
the course of Taiwan-China relations. Options remain open. It 
would be a serious mistake to appease China and abandon Taiwan. 
The challenge is benefiting from, while also controlling, 
improved relations with Beijing. Only Taiwan can defend itself, 
but it needs the United States as a counterweight to China's 
growing power and influence.
    The U.S. wants Taiwan stable, peaceful, and democratic for 
the people of Taiwan, as a model to others in East Asia, and as 
an assurance of U.S. credibility and dependability. Congress 
can and should serve the U.S. national interest by more 
actively promoting positive development of U.S.-Taiwan 
relations.
    Thank you.
    [The prepared statement of Ms. Tucker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much. Excellent 
testimony from all of our witnesses.
    As we all know, Taiwan is a full member of the Asia Pacific 
Economic Cooperation, APEC, and this forum is a very important 
one internationally. The United States will host the next APEC 
summit in Honolulu this November, and I strongly encourage the 
Obama administration to invite Taiwan's President to the 
Honolulu APEC summit along with the leaders of the other APEC 
countries, and we hope that that happens.
    I wanted to ask our panelists about arm sales. There has 
been an unwillingness since January, 2010, by the 
administration to notify Congress regarding any foreign 
military sales to Taiwan. This has resulted in an ongoing 
neglect of Taiwan and a growing disregard for U.S. obligations 
under the TRA, the Taiwan Relations Act.
    Has China established any so-called ``red lines'' with 
respect to potential U.S. defense transfers to Taiwan? And, if 
so, what are they? And at present what do you think are the 
most pressing needs of Taiwan's military that can and should be 
met by the United States through the foreign military sales 
process? Is it the F-16s, the diesel submarines, et cetera?
    We will begin down the line. Thank you.
    Ms. Dreyer. Yes, I think the F-16s would be a very 
important symbolic gesture. It is just that the F-16, even in 
its C/D version, is not going to be any match for new fourth-
generation, fifth-generation Chinese planes coming on line. I 
would therefore very seriously suggest that we get busy with 
the submarine sales as well.
    I am sorry. There was another question you had there.
    Chairman Ros-Lehtinen. It was if China has established any 
red lines with respect to----
    Ms. Dreyer. Thank you.
    The problem is that China lets us know it has these red 
lines, but does not tell us what the red lines are. This fits 
in with a very clever propaganda that it uses on its own people 
that U.S. scholar Perry Link has referred to as ``the anaconda 
in the chandelier.'' In other words, there is something up 
there looking at you in the light fixture, and every so often 
it moves and you wince in terror, but it never lets you know 
what it is. And this induces on the part of the United States 
something that you might call a preemptive cringe and----
    Chairman Ros-Lehtinen. Thank you.
    Ms. Dreyer [continuing]. It works every time.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Schriver.
    Mr. Schriver. I agree with everything Professor Dreyer just 
said.
    I have from time to time heard the Chinese describe the F-
16 C/D sale as a red line, but--Professor Dreyer is absolutely 
correct--they don't describe exactly what that means, what they 
might do in response. Threats they have made in the past about 
arm sales have not been realized. There were threats of 
sanctions against U.S. companies. The last time, there was a 
$6.4 billion package notified. None of those companies that had 
commercial sales ongoing in Beijing were affected whatsoever. 
And we shouldn't put these things in China's face to challenge 
them: Will you really do something this time?
    But I think it speaks to the point we should not hold these 
notifications so long, sit on them so that pressure grows and 
grows and China starts to believe that, hey, we can influence 
their decision making, and we can threaten them with so-called 
red lines. And it has really warped our process. We should do 
these as a matter of routine course, based on objectives, 
analysis of the military balance, and just explain it that way.
    Chairman Ros-Lehtinen. Thank you very much.
    Professor Tucker.
    Ms. Tucker. I think I would underline what Randy just said. 
There have been Chinese red lines. There are Chinese red lines. 
There are rumors today that China could perhaps tolerate the 
upgrades if we divide that into small packages, but the C/Ds 
are unacceptable.
    I also think that there will always be red lines, but we 
have crossed them before. Who would have thought that they 
could sit back and tolerate a DPP President of Taiwan? So there 
have been a number of things that have happened, and China has 
had to deal with it, and I think that this is not that big an 
issue that we are likely to be severely punished for it.
    As far as which sales, my own sense is that the aircraft 
are the most important. Unless we have made a decision that 
Taiwan does not need an air force, they have to have those 
planes. Their F-5s are falling out of the sky. F-16s are in 
serious trouble. They are about to retire the Mirage because 
they are too expensive to keep up. So I think aircraft should 
be the first priority.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Hammond-Chambers.
    Mr. Hammond-Chambers. Yes, ma'am.
    On the red lines again, as you point out, it is China's 
position that it is a red line. It is not our position that it 
is a red line, of course. I think that is essential.
    We have an FMS process here in the United States that works 
for our foreign military partners. We should use it in respect 
to Taiwan and regularize and normalize the armed sales process, 
which is not regularized and normalized at the moment.
    We have allowed China to start influencing the process, and 
I think the nonacceptance of the LOR for the F-16s is an 
example of that. It is the F-16s today, and then it is whatever 
comes tomorrow. It will be less than the F-16s. The Chinese 
will attempt to incrementally walk down our commitment to a 
point where it is negligible and then they have free run.
    Chairman Ros-Lehtinen. Absolutely. Thank you so much for 
those answers.
    I am pleased to yield to the ranking member, my friend Mr. 
Berman, for 5 minutes of questions.
    Mr. Berman. I thank you very much.
    Fundamentally, I agree with what both my colleagues have 
said, and what the witnesses have said on this issue. But let's 
for a second try to put ourselves out there--the chairman 
referred to it, in some policy circles, there is a notion that 
our relationship and our position with Taiwan undercuts our 
interests, oh, because we want China to do more on currency 
revaluation, because we want them to be more assertive with 
North Korea, because we don't want them to backfill on Iran--
because, because, because, because and that somehow all of 
these important concerns aren't being addressed by the Chinese 
because of Taiwan Relations Act and policies. And that is why 
people are hesitant to do the sales and all that.
    Some of you have touched on that, but I would like to hear 
you talk, a few of you at least, talk a little more on it.
    And I am curious about the extent to which the other 
panelists agree with Ms. Tucker's point that basically she 
doesn't doubt, even though it is not always so clearly stated 
and there is a little bit of ambiguity, that the United States 
is committed to Taiwan's security; and implicit in that is the 
Chinese know that the United States is committed. Ms. Tucker 
didn't say that, but if I am right that that was implied, do 
you agree with that conclusion?
    Why don't you just take the next 3 minutes, any of you who 
want, to dwell on that?
    Ms. Dreyer. If I could go first, it seems to me that the 
United States needs to assert in some meaningful way that it 
does still mean to protect Taiwan's security. It has to do that 
by making a gesture, like selling the F-16s.
    Mr. Berman. Why, because you don't think that we intend to? 
Or because you don't think China thinks we intend to?
    Ms. Dreyer. I think some of both. Those are not mutually 
exclusive.
    Mr. Berman. So you disagree with Ms. Tucker's----
    Ms. Dreyer. I am not sure I do disagree with Ms. Tucker. 
But in any case, I do think the sale must take place in order 
to show----
    Mr. Berman. Well, so does she and so do we.
    Ms. Dreyer. Yes, in order to show our sincerity, because 
there are two ways that the Taiwan Relations Act could 
deteriorate.
    What China would like us to do, of course, is repudiate it, 
which is not going to happen. But things often happen by 
inaction. What seems to be happening now is that the Taiwan 
Relations Act is eroding through inaction on the part of the 
United States to live up to its commitments.
    Mr. Berman. Anybody else?
    Mr. Schriver. Congressman Berman, if I could address the 
first part of your question about what we could expect from 
China if we changed our policies on Taiwan because I did 
address this in my statement. I think it is absurd to think 
that somehow China is currently taking suboptimal positions on 
North Korea, Iran, currency to show their annoyance about our 
Taiwan policy or that they would take suboptimal positions in 
the future as an expression of gratitude if we changed 
something. These are very important strategic interests for 
China. And we could go at length about----
    Mr. Berman. They take their positions----
    Mr. Schriver. They are interest-based, and they would not 
be altered if we changed our positions on Taiwan. The 
atmosphere might be better. There might be, you know, nicer 
greetings.
    Mr. Berman. Apparently the military could meet more 
frequently.
    Mr. Schriver. Well, you know, I ran that program for a long 
time. It always struck me that if China has ambitions to become 
a greater military and more powerful, capable military, and 
they are choosing not to interact with the world's greatest 
military, who gains and who loses in that equation?
    Mr. Berman. Some of our military leaders act like we are 
losing.
    Mr. Schriver. I have never understood why we would the 
ardent suitor in a military relationship with China.
    Ms. Tucker. As a historian, I would have to remind you that 
talk of abandoning Taiwan is not new. It has happened many 
times in the past, and there is no doubt that at least for the 
moment, the U.S.----
    Mr. Berman. There was a lot of that in the 1950s; wasn't 
there?
    Ms. Tucker. Absolutely. There was even one Member of 
Congress who hoped that Taiwan would sink into the sea so we 
could stop worrying about it.
    Mr. Berman. Usually, they ask that California to do that, 
so I am glad----
    Chairman Ros-Lehtinen. The ranking member's time is up. So 
I am going to cut you off if I could, just because we have so 
many votes coming up. Save that answer for another question.
    Mr. Chabot, the chairman of the Subcommittee on Middle East 
and South Asia, is recognized.
    Mr. Chabot. Once again, Madam Chair, let me thank you for 
holding this very important hearing on Taiwan. This is truly a 
very distinguished panel this morning.
    First let me address the issue of restrictions on 
diplomatic visits by high-ranking Taiwanese officials, 
something I have always felt was both insulting and 
counterproductive.
    I can remember joining a number of my colleagues, there 
were 25 Members, approximately, some years ago, and we flew up 
to New York City one evening after votes to meet with then-
President Chen Shui-bian, a great friend of America. We 
traveled to New York--and I think you were there, Dan, if I am 
not mistaken--because President Chen could not come to 
Washington, DC. I can remember the veiled threats from 
Communist China when former President Lee Teng-Hui, another 
great friend of the United States, known as the father of 
Taiwanese democracy, wanted to visit his alma mater, Cornell, 
Cornell University.
    And I vividly remember meeting a Taiwanese legislator, Mark 
Chen, here in the United States Capitol where he was allowed to 
visit. And only a few weeks later, we had to travel all of the 
way up to Baltimore to meet with him because he had become the 
equivalent of Secretary of State, the foreign minister. And 
because of his new position, he was no longer welcomed in 
Washington, DC.
    Now, the policy that I just talked about is U.S. policy. 
That is American policy. That is our Government's policy that 
says that they can't come here. This is outrageous. This is 
plain nonsense and ought to be changed.
    So I will ask the panel, what are your thoughts on that 
policy?
    Perhaps, Mr. Schriver, you might want to comment as a 
former State Department official how these restrictions might 
affect our diplomatic exchanges with the Government of Taiwan 
if they can't even come here, the President and Vice President, 
Secretary of State, et cetera, and before I turn it over to the 
panel, let me also ask a question about arms sales. We already 
talked a little about that.
    I remember when I first came to Congress after the 1994 
election, back in 1995, and I was the co-chair of the 
Congressional Taiwan Caucus for about 10 years, one of the 
founding members of it, there were a few hundred missiles aimed 
at Taiwan, and then it increased more. It went to six, seven, 
eight, nine. My understanding is that the latest number is 
about 1,600 short- and medium-range ballistic missiles aimed at 
Taiwan, our friend and our ally.
    If you can comment on that and perhaps if you have time, 
also China's campaign to isolate Taiwan, whether it is the 
World Health Organization, where they objected to them being 
there on observer status, or participation at the U.N., or 
their campaign to try to get those who still recognize Taiwan 
to rescind that and basically bribing these nations to do so.
    So any of these things that I mentioned, I would ask any of 
the panel members.
    Professor, I don't know if you would like to start.
    Ms. Dreyer. Thank you. I share your concern about the 
absurdity of not allowing official interaction and visits. We 
argue under any circumstance that dialogue is good. We dialogue 
with terrorist leaders. We insist that meeting with the Chinese 
military is good because we need to understand each other. And 
yet we deny this to a country we have an alliance with.
    As for the World Health Organization, this is one of these 
things that has been blown out, way out, of proportion as a 
victory for the current Taiwan administration. The way that 
Taiwan has been allowed into the WTO is as an observer, which 
is on the same status as Hong Kong, which is considered part of 
China. And also, it is worse than Hong Kong because it allows 
China to agree or disagree to allow Taiwan on an annual basis, 
which is, of course, a mechanism for behavior compliance.
    Thank you.
    Ms. Tucker. If I might, I would say that it has been a 
principle of American foreign policy that meeting with heads of 
state from other countries is a vital practice. Summitry was 
very important during the Cold War. We emphasized it with 
China. There should be an opportunity for Presidents to talk to 
each other, get to know each other. George Bush looked into 
Putin's eyes, and it made all of the difference in the world. I 
think that Obama meeting Ma Ying-jeou would be a very good 
thing.
    But I also want to go back and underline something about 
the question of abandonment, and that is that we have talked 
about but we haven't emphasized the importance of democracy as 
a bond between the United States and Taiwan. If you were to ask 
me why the United States will not abandon Taiwan, it is because 
of the shared democracy that we helped to nurture, that we 
celebrate. I don't believe that Congress or the administration 
would abandon a democracy.
    Chairman Ros-Lehtinen. Thank you so much. I hate to cut you 
off yet again.
    Mr. Faleomavaega, the ranking member on the Subcommittee on 
Asia and the Pacific.
    Mr. Faleomavaega. Thank you, Madam Chair.
    I want to commend and thank the distinguished members of 
the panel for not only their expertise but certainly 
understanding of the situation in Taiwan.
    Taiwan is in a predicament not by choice. I think we all 
understand historically how this whole thing evolved from the 
civil war that China was under between Mao Tse-tung and Chiang 
Kai-shek. And there was a dream that Chaing Kai-shek had to 
someday want to go back to mainland China and take over from 
Mao Tse-tung. That is history. Correct me if I am wrong in this 
respect.
    China and its terms as one of the most critical factors of 
the whole Nixon policy and its efforts, which in my opinion 
literally changed the course of history, when Henry Kissinger 
and his efforts that made, that caused the relations between 
China and the United States very understandable, and Taiwan was 
one of those issues that to still to this day is still in a 
form of ambiguity and not really saying for what it is and what 
it stands for.
    Now call it what you may; it looks like a duck, acts like a 
duck and quacks like a duck. The fact that Taiwan has 
diplomatic relations with 23 countries, 6 of those countries 
are South Pacific Island countries.
    There has also been a consideration to say that Taiwan and 
China were conducting checkbook diplomacy to gain the favors 
and understanding and appreciation of those countries that they 
recognize for whatever given interest that they have between 
those two countries and what we have here.
    I don't think that this administration is any different 
from what President Clinton did when he sent two battle groups, 
naval battle groups, to prove to our friends in China that we 
mean every bit of the substance of the Taiwan Relations Act, 
that we will defend Taiwan at all costs.
    Now, I don't know, I am not a genius in military strategic 
matters in terms of the fact that there are 1,400 missiles in 
mainland China pointing at Taiwan. I really don't know if 
selling 66 F-16s is going to provide some sense of safety for 
the lives of some 23 million people living in Taiwan. Well, you 
say it is for symbolic reasons. But in reality, are we serious 
about the fact that selling these arms equipment to Taiwan is 
going to give them the capability of defending itself against 
China?
    I would love a response from our distinguished panel.
    Ms. Dreyer. I would say that the F-16 is a capable plane 
without being solely, by itself, able to redress the military 
balance across the strait. So it will not solve the problem 
completely, but it will be a step in the correct direction.
    Mr. Faleomavaega. And I believe China also currently has 
about 100 nuclear-capable submarines all over the world, and I 
suspect in the Pacific--Asia-Pacific region. And the Chinese 
are not stupid. Why build an aircraft carrier when you can 
build a nuclear submarine that is more lethal and more 
dangerous in its capabilities in terms of really when you talk 
about serious strategic and military advantage. This is, as it 
is to any country, is to defend itself.
    Ms. Dreyer. Sir, it is not an either/or. They are doing 
both.
    Mr. Hammond-Chambers. Congressman, again, I would like to 
echo professor Dreyer's point. It is important to not consider 
the F-16s simply as the only solution we are proposing. There 
are two issues I think at play here. The first is getting the 
process moving again, getting things considered.
    At the moment, we are not even considering stuff, and stuff 
that is supposed to be being considered is frozen in the 
system. So it is getting the system moving again so that F-16s 
can be considered. If the decision is no, then the decision is 
no. But we should at least consider the sale, which we are not 
doing at the moment. Submarines, an asymmetric capability, can 
confuse--can make it tougher for the Chinese to calculate on 
whether or not they should go over to the Taiwan Strait. There 
are things that we can do in total and ongoing that can improve 
Taiwan's security.
    Mr. Faleomavaega. Sure, I know my time is running, but 
there is one thing I want to emphasize again. The One-China 
policy has not changed from all of the previous 
administrations, including President Reagan, all of the way 
down even to this President. The fact that this is one of the 
ambiguities dealing with the people of Taiwan, and I feel for 
the 23 million people living in Taiwan and not wanting to know 
the fact that they are not really being treated as a full 
sovereign country as a state, but in terms of--I don't know, 
international laws or whatever it is, and giving this undue 
recognition, as my friend, Mr. Chabot, was saying, it is how we 
treat these officials coming from Taiwan. To me it is unfair. 
But that is the reality that we are dealing with.
    I am sorry, Madam Chair, my time is up. I want to thank the 
panel for their excellent testimony.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Faleomavaega.
    The chairman of the Europe and Eurasia Subcommittee is 
recognized, Mr. Burton.
    Mr. Burton. Thank you, Madam Chair. I want you to know I 
really appreciate you holding this hearing. Taiwan has been a 
great friend to the United States forever. We need to live up 
to our commitments.
    I would just like to answer one of the questions that Mr. 
Faleomavaega just raised, and that is: Are the F-16s going to 
be a deterrent if China decides to launch its 1,600 missiles 
and come across the strait and blow up Taiwan.
    No, but what it does do is it shows that we are committed 
to the Taiwan Relations Act, which also includes defending 
Taiwan in the event of an attack. Now, if we don't sell them 
the things that we said we would sell them to protect 
themselves under the Taiwan Relations Act, it looks like a move 
toward appeasement. It looks like we are not going to live up 
to our agreements, so China may say, oh, will if they won't do 
this, even sell them the weapons to defend themselves, maybe 
they won't come in and bring the Fifth Fleet in to defend 
Taiwan if it is necessary. I think it is the Fifth Fleet.
    But in any event, I think it is important that we live up 
to every item in the Taiwan Relations Act, and I think that 
sends a very strong signal to China.
    I really abhor watching the head of China come to the White 
House, get the red carpet treatment, the handshakes, the 
dinners and all of the accolades when there are 10 million 
people in communist gulags and human rights violations are 
horrible, and forced abortions are--abortions are forced upon 
people.
    I mean, this is not our good buddies. They are our 
adversaries, and we need to continue to look at them that way. 
They are in the world. We have to deal with them. I understand 
all that. But we need to live up to our commitments, and our 
commitment to Taiwan is very clearly stated in the Taiwan 
Relations Act. I wish it was more than that, if I had my way.
    Now, Madam Chairman, Chairwoman, Chairperson--I still have 
trouble knowing how to address people--one thing I would really 
urge the chairman to do and that is to make a copy of all of 
the statements today, because I thought they were all great, 
and send them to Secretary Clinton and to the White House and 
ask them to read those remarks. I am serious because I think 
that they need to take a hard look at what was said here today 
and let them know that the Congress of the United States 
supports the statements that were made.
    The last thing that I would like to say is that I am so 
disappointed that this administration didn't come here today to 
testify. It shows an absence of concern that is remarkable. We 
have dealt with Taiwan, not only in foreign policy but in trade 
and so many ways. We don't treat them the way that they should 
be treated, and at the very least, the State Department should 
have had somebody here to testify and to answer questions 
today. I think they were afraid to because I don't think they 
have the answers.
    Thank you for having this hearing.
    Thank you very much, panelists. I thought you were great. 
Usually I disagree with two or three panelists, and I jump all 
over them. But today, I love you all.
    I sure hope that you will send these remarks to Hillary.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Burton.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    Gosh, I don't know what to say to a panel that is loved, 
beloved by Dan Burton. Uh-oh. But thank you for your testimony.
    Professor Tucker, you were talking a little bit earlier 
about, you know, abandonment, and Mr. Berman mentioned in the 
1950s, certainly there were Members of Congress who said to 
abandon. But I mean, today, in serious public policy 
discussions, are you aware of prominent folks in the foreign 
policy field, in the Congress and in the administration, for 
example, who have given voice to that worry?
    Ms. Tucker. Unfortunately, yes.
    Ambassador Joseph Prueher, our former Ambassador to China, 
led a study group that included Jim Shinn, a former Pentagon 
official, and others, who all said it was time to rethink our 
Taiwan policy. Even Members of Congress----
    Mr. Connolly. No, no, my question was the word 
``abandonment.''
    Ms. Tucker. Oh, using that word in particular?
    Mr. Connolly. Yes.
    Ms. Tucker. I am not sure.
    Mr. Connolly. No. So rethinking policy is one thing; 
abandonment is quite another. I just wanted to get that on 
record because no one is talking about that.
    With respect to--I mean, the title of this hearing is, 
``Why Taiwan Matters.'' Why does Taiwan matter to the United 
States? Why is it of any critical interest to the United States 
in the year 2011?
    How about you start, Professor Tucker? All wisdom we know 
in Washington flows from the Georgetown Foreign Service School.
    Ms. Tucker. Absolutely.
    I would underline because of its democracy, because it 
shares our values in a region of the world where we would like 
to see democracy spread. It is a potential model for China in 
the future. Also, it is a strategic asset and potentially a 
strategic problem for us if Taiwan was not there, and we 
couldn't cooperate with it.
    Mr. Connolly. You might also want to say, Professor Tucker, 
that there is a statutory framework for the relationship that 
is spelled out in law.
    Ms. Tucker. Yes. And I think China should be reminded that 
we do take our laws seriously.
    Mr. Connolly. And that law, also, does it not, addresses 
the defense relationship?
    Ms. Tucker. Yes.
    Mr. Connolly. Mr. Schriver, you made reference to the F-
16s. I think you may have mentioned, or maybe it was Ms. 
Dreyer, that the F-16s are not--even if the sale went through 
tomorrow, unfortunately, they are not going to be--their 
deterrent--their ability to deter an actual attack, given the 
capability on the mainland, is limited. Could you expand on 
that just a little bit?
    Mr. Schriver. I would make a couple of comments. Again, 
nobody talks about the F-16s in complete isolation. There are 
many things that Taiwan needs to do to enhance its capabilities 
and its deterrence position, and there are many things the 
United States can do to support that beyond F-16s, but I would 
say that the F-16s are part of it.
    Number two, a lot of people who say that the F-16s won't 
help, won't do enough because the posture of China is so 
overwhelming, they only talk about one scenario, which is the 
all-out attack scenario. The F-16s are actually quite useful as 
a multi-role aircraft in a number of contingencies, like the 
counter blockade, like if there was a battle over one of the 
offshore islands and as a ground attack capability.
    So there are a number of things that the F-16s can do 
beyond defending that all-out attack. Although it is a piece of 
the answer for that as well.
    Mr. Connolly. That is a very good point you make, that we 
cannot look at just one scenario and that in other scenarios, 
the F-16s clearly have value. But what about the current 
capacity, air fleet capacity of Taiwan? Where are they in their 
current fleet?
    Mr. Schriver. It is an aging fleet. They are still flying 
F-16s, I believe. Dr. Tucker said they are falling out of the 
sky. That is literally true. They have Mirage aircraft that 
they can't support adequately because spare parts and logistics 
are unavailable. Frankly, the F-16 is getting on itself. It is 
still very capable aircraft for Taiwan's needs. But if this 
decision is not made and the F-16 closes, the F-16 line closes, 
we are either going to have Taiwan with no air force, or we are 
going to have to consider a more advanced aircraft, like the F-
35, which I would be prepared to do, but I suspect that an 
administration that is already reluctant to sell F-16s is not 
going to like the idea of an F-35.
    Mr. Connolly. I think that is a really good point we can 
end on: 70 percent of the current air fleet has to be retired. 
We cannot have Taiwan without some air defense capability, and 
that means the F-16 decision can't be somehow put off forever.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rivera of Florida is recognized.
    Mr. Rivera. Thank you, Madam Chair, and I thank the 
witnesses for their testimony.
    I want to start off by letting you all know that I have 
visited Taiwan on several occasions, and I am familiar with the 
important issues facing Taiwan and facing our bilateral 
relations, and also our relations with China. I am particularly 
familiar with how important Taiwan is to our Nation as an ally. 
China's large military expansion throughout the past decade, I 
believe, poses a clear and present danger to Taiwan and the 
entire region, a threat that may have implications for the 
United States as well, as has been discussed here today.
    This administration, I believe as well, has clearly been 
pressured by the Chinese to control Taiwan and Taiwan policy in 
every way possible. I still find it unconscionable how our 
Government refuses to allow any senior leaders of Taiwan's 
Government into the United States and into Washington, DC.
    China should never, I repeat, never be allowed to dictate 
our Nation's foreign policy. And our lack of action when it 
relates to arms sales to Taiwan is a clear sign that the 
Chinese are pressuring us in order to further China's interests 
with respect to defense and foreign policy.
    As I have previously stated in this committee, it is 
important for the United States to stand with our allies, and I 
believe specifically in this case with respect to this hearing 
that it is important to note that we must deliver those F-16s 
and the diesel submarines to Taiwan. Because the Chinese 
military poses a clear threat to the region, it is time that we 
commit to helping a great friend like Taiwan and act with them 
in providing them these defense systems that is are critical to 
their national self-defense.
    So let me ask the panel, and I will begin with Professor 
Tucker, can you just spell it out for us in plain and simple 
terms, what is the thinking in the West Wing, the National 
Security Council, what is their thinking? Why won't they help 
Taiwan and deliver these weapons systems?
    Ms. Tucker. I can't speak for the administration.
    Mr. Rivera. What do you think their thinking is?
    Ms. Tucker. I do believe that the pressure from China is a 
significant factor, and it shouldn't be, as several people have 
mentioned. I think there has been over time a sense that Taiwan 
is not important in comparison to what China can contribute in 
world affairs. I think that is a problem.
    Mr. Rivera. So they are basically throwing Taiwan under the 
bus because of the larger interests with China?
    Ms. Tucker. I wouldn't go quite that far. I do think, for 
instance, that the government spokesmen who intended or perhaps 
should have been here today, Kurt Campbell and Derek Mitchell, 
are actually good friends of Taiwan and have promoted policies 
to help Taiwan in the past. So I wouldn't say that we are 
throwing them under the bus; but I do think that on a value 
scale, there is a lot of concern about China's actions in the 
world.
    Mr. Rivera. Mr. Schriver, you have been in the belly of the 
beast. You know the process over there in the National Security 
Council and the State Department at the highest levels. In 
plain and simple terms, what are they thinking? Why won't they 
support Taiwan and these weapons system deliveries?
    Mr. Schriver. I agree with what Dr. Tucker said. I think 
there is a growing influence on the part on China on our 
decision making. But I use this term ``the tyranny of the 
calendar.'' Our administration seems to always look for the 
right time to have an arms sales announcement. If you look at 
our calendar of activities, we have got the strategic and 
economic dialogue in May. We have got Vice President Biden 
visiting in July. We have Hu Jintao coming in September for the 
U.N. General Assembly. We have got--so guess what, there is no 
right time. And then they have to take into account the 
congressional schedule, because there are certain days that are 
required for a notification. And these things get backed up and 
backed up, and then the problem gets harder, not easier, 
because then the Chinese are looking at a much larger package 
because everything is backed.
    So I think they have gotten themselves bollixed up. I think 
they need to just--I am sorry, there is not a better way to say 
it. They need to be bolder and more courageous and deal with 
the Chinese fallout because I think the historical data 
suggests we can absorb the fallout.
    Mr. Rivera. Well, it seems pretty clear from just the 
panelists I have heard that this administration is kowtowing to 
pressure for a variety of reasons from the Chinese; and 
hopefully they will reconsider those positions and stand by our 
ally, Taiwan.
    I yield back, Madam Chair.
    Chairman Ros-Lehtinen. And batting cleanup for our team, 
Congressman Wilson of South Carolina.
    Mr. Wilson. Thank you, Madam Chair. Thank you for your 
leadership on this issue. I am very appreciative of all of our 
witnesses, the recognition of Taiwan as such a significant 
friend of the United States. And it is particularly important 
to me, my father served with the Flying Tigers in China in 
World War II. He was in Kunming and Xiangcheng, too, and he 
developed a great affection for the people of China.
    I have had the privilege and opportunity of visiting 
Taiwan. What an extraordinary country. What a model of 
development and opportunity for people in the Far East.
    Additionally, I have had the opportunity to visit Beijing-
Shanghai, and I had the opportunity to visit with President 
Jiang Zemin at the Presidential compound. He was somewhat 
interested to meet me as a Member of Congress. But when it was 
announced that I was the son of a Flying Tiger, he stopped the 
meeting and announced something very surprising to the American 
people, that the American military is revered in China.
    And I did go back several years later for the 60th 
anniversary of VJ Day where monuments were erected to the 
Flying Tigers, to the American service members who saved 
millions of Chinese lives.
    So my view is that you can be a friend of Taiwan; you can 
be a friend of the People's Republic. And I am just hoping that 
each can develop in such a way, particularly as democracy, 
hopefully, spreads and is developed on the mainland.
    With that in mind and that background, since 2006--and this 
is for any one of you who would like to answer, and I am 
regretful that there is not a representative from the 
administration here--since 2006, Taiwan has been trying to 
submit a formal letter of request to procure new F-16 C/DD 
fighters to replace aging fighters, as you have discussed. 
Defense Secretary Robert Gates submitted to Congress in 
February 2010 an unclassified assessment of Taiwan's air 
defenses, including its F-16s fighters, which stated that 
Taiwan faced a diminished ability to deny the PRC air 
superiority. Why has the Obama administration not acted in 
regard to Taiwan's need for the new F-16 fighters? When does 
the President need to make a decision in order to sustain the 
F-16 production line?
    Mr. Hammond-Chambers. Thank you, Congressman Wilson.
    Just quickly, on the industrial base issue--the U.S.-Taiwan 
Business Council works closely on this--the line will start to 
wind down at the end of this year. Lockheed Martin's Fort Worth 
facility will deliver the last F-16 at the end of 2013, but it 
requires 2 to 2\1/2\ years of lead order time to ensure that 
the supply chain provides the necessary parts. So for there to 
be smooth production for any order from Taiwan, the letter of 
request really needs to be brought into the U.S. Government by 
the end of 2011 for that to take place.
    Mr. Wilson. Thank you. That is very clear. I appreciate 
that.
    For each of you, there has been no comprehensive review of 
U.S. Policy toward Taiwan since 1994. Many experts believe that 
a comprehensive U.S. Strategy and policy review is needed to 
adjust to the new realities of the Taiwan Strait and to sustain 
U.S. security, political and economic interests in regard to 
Taiwan and China. Do you think it is now time for a 
comprehensive policy review?
    Ms. Dreyer. Sir, that was one of the four recommendations I 
made. I do hope that it will be more successful than the 1994 
policy review, which in my opinion worsened Taiwan's situation 
rather than helped it because it was that 1994 policy review 
that restricted the visits. And so a review, you mentioned in 
light of new realities across the Taiwan Strait, that scares 
me. So I hope this review would be conducted with Taiwan's best 
interest in mind rather than the ``new realities across the 
strait.'' Thank you.
    Mr. Wilson. Thank you. That relates directly to my next 
question, and that is: To what extent does uncertainty about 
U.S. security commitment to Taiwan lead to a broader 
uncertainty as to America as a security guarantor in East Asia, 
particularly we think of DPRK?
    Ms. Tucker. I think that is one of the critical issues that 
we don't hear a lot from other countries in Asia about what we 
should do, certainly not publicly. But privately, it is my 
understanding that many of them have said, stand by your 
promises. We need to rely on you. And if we don't follow 
through on our promises to Taiwan, I think it will have a very 
negative effect on a number of friends and allies in the 
region.
    Chairman Ros-Lehtinen. Thank you so much.
    Thank you, Mr. Wilson.
    Mr. Payne is recognized. He is the ranking member of the 
Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Payne. Thank you very much. Thank you, Madam Chair, 
first, for calling this very important hearing.
    The upcoming elections, I am wondering if anyone wants to 
try to answer, the Koumintang regime, under the leadership of 
President Ma Ying-Jeou, has recently charged 17 former 
opposition officials belonging to the Democratic Progressive 
Party as violating laws, including the National Archives Act, 
alleging that they failed to return about 36,000 documents 
during the DPP administration.
    Critics in Canada, Europe, Australia, and the U.S. are 
concerned about the timing of these announcements, noting that 
if there were any documents withheld or missing, an alarm 
should have been gone off during the transition period between 
the DPP administration and the current government in 2008, not 
3 years after the fact and during the current primary season 
for next year's Presidential elections. Can anyone here 
address, in your opinion, the criticism that the judiciary 
process is being used as a political weapon?
    Ms. Dreyer. If I can start off with that, yes. That is one 
excellent example. Not only the, ``suddenly missing'' 36,000 
documents that have been missing for quite some time, but there 
have also been wholesale indictments of officials of the 
previous administration. The judiciary has been used in ways 
that were so irregular that it prompted a series of--I think--
five different letters by human rights advocates and others. 
The signatories included President Ma's former mentor at 
Harvard Law School, who also expressed his concern. This is 
something I didn't have time to address in my oral statement, 
but you will find in the written one. In ways that are very 
worrisome, the United States' seeming withdraw from support of 
Taiwan is having very deleterious effects on Taiwan's democracy 
and its civil liberties.
    Mr. Schriver. If I could just add very briefly to that, I 
think that what is really needed is full transparency and that 
there is aggressive oversight on the part of the press, 
aggressive response from the international community when they 
see things. It is hard to know ground truth. I mean, it 
certainly looks like there is something that is not consistent 
with rule of law and that the judiciary has not been used 
appropriately in certain instances. But I do think that if 
there is transparency and this is brought out into the 
daylight, the people of Taiwan will respond the right way, 
which is to punish that kind of activity. I do have confidence 
in Taiwan's democracy and that the people will exercise their 
vote, taking these things into account.
    Mr. Payne. Thank you very much.
    Taiwan, and we all know in comparison to many of the 
countries in Asia, Taiwan for the most part currently has a 
pretty decent human rights standard, as I said in comparison. 
The current President, Ma Ying-Jeou, has contended that he has 
valued democracy, freedom, and human rights.
    Critics of President Ma and the KMT party, however, have 
criticized the current Taiwanese administration as not doing 
enough to promote the democratic values and the PRC, and that 
the judicial reforms in Taiwan have really not been addressed. 
President Tsai Ing-wen, chairwoman of the opposition Democratic 
Progressive Party, called for adding human rights in the cross-
strait talks and agreements, and for Taiwan to be more vocal of 
the suppression of democracy within China.
    Can any of you provide insight into what democratic factors 
should be discussed in cross-strait exchanges in negotiations 
between Taiwan and China?
    Ms. Dreyer. It seems very difficult for the President of 
Taiwan, who is constantly being urged to better relations 
across the strait, to be chiding the People's Republic of China 
on that. I notice that even when our own Secretary of State, 
who is in a far more powerful position does that, and 
innocently--I think she was innocently suggesting that the 
disputes in the South China Sea be settled in a democratic 
manner, and incurred the invective of the Chinese Government. 
So they don't take well to that.
    Chairman Ros-Lehtinen. Thank you so much. I apologize, but 
our voting series has started.
    Thank you, Mr. Payne. Your time is up.
    Mr. Royce, I would like to recognize you, so that you can 
ask your questions.
    Mr. Royce. Thank you.
    The question I asked the panelists originally, if we can go 
back to that. We have free trade agreements in Asia, about 100 
of them. But China has really leaned on its neighbors not to 
allow Taiwan to engage in any of those. And as a result, that 
sort of steadily erodes the ability to compete and the ability 
to be engaged in trade and investment there from the 
competitiveness standpoint.
    What can we do to move forward on our Trade and Investment 
Framework Agreement? That is an agenda that we have with 
Taiwan, and how can we use this dialogue to increase the 
prospect of securing a U.S. free trade agreement with Taiwan in 
the near future?
    Mr. Hammond-Chambers. Thank you, Congressman Royce.
    On the TIFA, I believe with the present situation with 
USTR, the USTR really is looking to Mr. Baucus and those who 
are friendly to the beef community to drive this issue.
    But there is no counter in Congress. There is no pressure 
from other parts of Congress to try and counter the pressure on 
beef. And as a consequence, the USTR is acting really with the 
sole guidance of one particular constituency on the Hill.
    So I think congressional leadership, pressuring USTR to put 
beef aside, not to give up on it, but to put it aside and allow 
the broader relationship to move forward. Of course, the 
benefit would be senior level USTR officials traveling to 
Taiwan and the improvement in communication.
    And then, of course, the possibility that we could start 
putting into place some building block agreements that would 
move us close toward a free trade agreement at such time as the 
U.S. is ready to start signing FTAs with other trading 
partners.
    Mr. Royce. Other ideas? Any commentary?
    Ms. Tucker. I would just add that it is not an entirely 
bleak picture about Taiwan and its isolation in the region. 
Since the Economic Cooperation Framework Agreement was signed 
with China, China has stepped out of the way, and Taiwan is now 
negotiating with Singapore for a free trade agreement, and 
there is talk about one, perhaps, with India.
    I think the one that Taiwan wants most is with us. As I 
understand it, that is in your court. I think Congress needs to 
deal with free trade agreements from a lot of places and move 
forward because Taiwan is not going to get it if Korea doesn't 
get it or Panama doesn't get it.
    Mr. Royce. That is what we are trying to elicit here. Go 
ahead.
    Mr. Schriver. I can't quite resist this question to talk a 
little broader than Taiwan. Because the hearing is ``Why Taiwan 
Matters,'' if we don't have a more aggressive trade policy, 
people are going to start wondering will the United States 
continue to matter because trade and commerce is the lifeblood 
of Asia, and we are in the game right now.
    Mr. Royce. Yes. Over 100 agreements, and we are party to 
two of them.
    Mr. Schriver. Yes. We should do Taiwan, and we should get 
KORUS done. And we should be much more aggressive. We should be 
a player rather than a very reluctant observer.
    Mr. Royce. Thank you. Any other commentary?
    If not, Madam Chair, I will yield back so we can go to the 
vote.
    Chairman Ros-Lehtinen. Thank you, very much, Mr. Royce, 
because Taiwan matters, but so do our voting percentages. So 
thank you very much.
    With that, the meeting is adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]
                                     

                                     


















                            A P P E N D I X

                              ----------                              


              Material Submitted for the Hearing Record Notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Written Responses from Ms. June Teufel Dreyer, professor of political 
    science at University of Miami, senior fellow at Foreign Policy 
   Research Institute, to Questions Submitted for the Record by the 
 Honorable Jeff Duncan, a Representative in Congress from the State of 
                             South Carolina

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Written Responses from Mr. Randall G. Schriver, partner at Armitage 
 International LLC., president & CEO of the Project 2049 Institute, to 
  Questions Submitted for the Record by the Honorable Jeff Duncan, a 
      Representative in Congress from the State of South Carolina

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: Responses were not received from Mr. Rupert J. Hammond-Chambers 
or Ms. Nancy Bernkopf Tucker to the previous questions prior to 
printing.]

                                 <all>

</pre></body></html>
